CERTIFICATE OF SERVICE
Petitioner certifies that this corrected version of the Petition for Rehearing is sent to the Clerk of
the Supreme Court through Certified mail today, June 29, 2021 for filing as well as the interested
party, Defendants’ attorney being notified through regular mailing address:
ESPARZA & GARZA
964 E. LOS EBANOS BLVD.
BROWNSVILLE, TEXAS 78520
and the interested party will also have electronic access to this document as soon as it is filed.

Respectfully,

IMEH U.
10001 CLUB CREEK DRIVE # 207
HOUSTON, TEXAS 77036

RECEIVED
JUL - 7 2021

1

